                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
 FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




           F I S C A L Y E A R 2010
F I N A N C I A L S TAT E M E N T AU D I T –
M A N AG E M E N T L E T T E R E XC E R P T



                                                                    January 6, 2011
                                                                    OIG-AR-11-03E
                                  EXPORT-I MPORT BANK
                                  of the UNITED STATES
OFFICE   OF   INSPECTOR GENERAL


   January 6, 2011


   This report presents a summary of certain matters that were identified by Deloitte &
   Touche LLP (Deloitte) in connection with their audit of the financial statements of the
   Export-Import Bank of the United States (Ex-Im Bank) as of and for the year ended
   September 30, 2010, on which Deloitte issued their report dated November 12, 2010.
   These findings and recommendations were communicated to Ex-Im Bank management in
   a letter dated January 4, 2011. Due to the limited distribution of the 2010 Management
   Letter, the Ex-Im Bank Office of Inspector General does not include it here.

   We engaged Deloitte to perform the FY 2010 audit under a contract monitored by this
   office. The contract required the audit to be conducted in accordance with: United States
   generally accepted government auditing standards; Office of Management and Budget
   audit guidance; and the Government Accountability Office/President’s Council on
   Integrity and Efficiency Financial Audit Manual.

   Deloitte issued an unqualified opinion on Ex-Im Bank’s FY 2010 financial statements.
   Also, Deloitte and Touche reported a significant deficiency in Ex-Im Bank’s internal
   control over financial reporting and no reportable noncompliance with laws and
   regulations were found. In addition, Deloitte & Touche noted control deficiencies related
   to Ex-Im Bank’s internal control over financial reporting and other matters that Deloitte
   determined should be brought to management’s attention. Deloitte’s observations are
   summarized in this report, and Deloitte’s recommendations and management’s responses
   regarding such matters are included.

   Deloitte is responsible for the observations and recommendations appearing in the 2010
   Management Letter. We do not express an opinion on Ex-Im Bank’s internal controls or
   conclusions regarding its compliance with laws and regulations.




   Jean Smith
   Assistant Inspector General for Audit




                 811 Vermont Avenue, N.W. Washington, D.C. 20571
Excerpts of the Fiscal Year 2010 Financial Statement Audit –Management Letter
(OIG-AR-11-03, January 6, 2011)

I. CONTROL DEFICIENCIES

1. Subsidy Re-Estimate Calculation

Deloitte noted that the interest rate assumption for medium term guarantees was not updated. In
addition, certain rows in the cash flow worksheet related to some cohorts used for the subsidy re-
estimate were not updated and errors were noted in the data entered into the file related to 2010
disbursements CSC2 Input File.

Recommendation 1
The Office of the Treasurer should have at least two competent individuals to perform a detailed
review of the data input into the automated cash flow process to ensure that the risk of human
errors in the manual aspect of the subsidy re-estimate process is minimized.

Management Response
Management agrees with the recommendation. The Treasurer and the head of the budget and
reports section will perform a detailed review of the data input into the automated cash flow.
Both individuals have significant experience with the re-estimate and as such are appropriate
reviewers.

2. Risk Rating Process

Deloitte noted the risk ratings for sovereign claims had not been updated. Deloitte also noted
there were errors in certain financial data used in the risk rating process and the risk rating of a
rescheduled loan had not been updated.

Recommendation 2
The Office of the Controller should identify the appropriate department to risk rate the sovereign
claims portfolio. Also, a more detailed review of the monitored credits risk rating should be
performed by the appropriate individuals to minimize human errors.

Management Response
Management agrees with the audit recommendation related to the Risk Rating Process. In
response to the Risk Rating findings, a Reserve Coordinator has been named to review not only
Ex-Im’s Risk Rating process but the entire Reserve process. The Reserve Coordinator will reach
out to all parties involved, identify, understand and assess the current Reserve process as well as
develop written documentation, by June 2011, on standard procedures and internal controls.




                                             Page 1 of 2
II. OTHER MATTERS

1. Accounting for Expired Transactions (Repeat Condition)

Deloitte noted that expired insurances and working capital guarantees over 120 and 180 days,
respectively were not removed from the accounting system as of September 30, 2010.
Therefore, Ex-Im’s total portfolio exposure was overstated. As a result, loss reserves were also
overstated as Ex-Im uses the exposure amount to calculate loss reserves.

Recommendation 3
Office of the Controller should coordinate with the Information Management and Technology
(IMT) Office to correct the code to ensure the expired contracts are properly removed from the
Loan/Guarantee and Accounting system in accordance with management’s policy.

Management Response
Management agrees with the audit recommendation related to the Accounting for Expired
Transactions. IMT had taken the appropriate steps to correct the issue in October 2009;
however, during the Ex-Im Online interface conversion, the issue resurfaced. It was fixed again
in October 2010. The Office of the Controller will test the issue again after the 3rd quarter to
ensure the process is still working correctly.




                                           Page 2 of 2
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
